SERVICE LIST
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org
Counsel for Thomas More Law Center
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com
Counsel for Americans for Prosperity Foundation
Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Counsel for Matthew Rodriquez, Acting Attorney General of California

